No. 20-382

In the

Supreme Court of the United States
GOVERNMENT OF GUAM,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

REPLY BRIEF FOR PETITIONER
LEEVIN T. CAMACHO
Attorney General
JAMES L. CANTO II
Deputy Attorney General
OFFICE OF THE ATTORNEY
GENERAL
590 S. Marine Corps Drive
Suite 901
Tamuning, Guam 96913
JOHN D.S. GILMOUR
WILLIAM J. JACKSON
FABIO C. DWORSCHAK
KELLEY DRYE
& WARREN LLP
515 Post Oak Boulevard
Suite 900
Houston, TX 77027

GREGORY G. GARRE
Counsel of Record
ROMAN MARTINEZ
BLAKE E. STAFFORD
LATHAM & WATKINS LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2207
gregory.garre@lw.com
BEZALEL STERN
KELLEY DRYE
& WARREN LLP
3050 K Street, NW
Suite 400
Washington, DC 20007

Counsel for Petitioner

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ..................................... iii
INTRODUCTION .......................................................1
ARGUMENT ...............................................................2
A. The Circuits Are Split On Both
Questions .......................................................2
B. The Importance Of This Case Is
Undisputed.....................................................7
C. The Decision Below Is Wrong .......................8
CONCLUSION ..........................................................12
ADDENDUM
United States’ Memorandum of Points and
Authorities in Support of Its Motion to
Certify
the
Dismissal
Orders
for
Interlocutory Appeal Under 28 U.S.C.
§ 1292(b)
and
Request
for
Stay,
Government of Guam v. United States, No.
17-cv-2487 (D.D.C. Dec. 6, 2018), ECF No.
49-1 (excerpt) .......................................................1a
United States’ Reply in Support of Its Motion
to Certify the Dismissal Orders for
Interlocutory Appeal Under 28 U.S.C.
§ 1292(b), Government of Guam v. United
States, No. 17-cv-2487 (D.D.C. Dec. 27,
2018), ECF No. 53 (excerpt) ..............................14a

ii
TABLE OF CONTENTS—Continued
Page
Petition for Permission to Appeal Pursuant to
28 U.S.C. § 1292(b), Government of Guam
v. United States, No. 19-8001 (D.C. Cir.
Mar. 11, 2019) (excerpt).....................................19a

iii
TABLE OF AUTHORITIES
Page(s)
CASES
Asarco LLC v. Atlantic Richfield Co.,
866 F.3d 1108 (9th Cir. 2017)................................5
Barton v. Barr,
140 S. Ct. 1442 (2020)............................................2
Bernstein v. Bankert,
733 F.3d 190 (7th Cir. 2012)...................... 5, 10, 11
Eagle-Picher Industries, Inc. v. United States
Environmental Protection Agency,
759 F.2d 922 (D.C. Cir. 1985) ................................9
Florida Power Corp. v. FirstEnergy Corp.,
810 F.3d 996 (6th Cir. 2015)............................5, 11
Honeycutt v. United States,
137 S. Ct. 1626 (2017)............................................2
Intel Corp. Investment Policy Committee v.
Sulyma,
140 S. Ct. 768 (2020)..............................................2
Lagos v. United States,
138 S. Ct. 1684 (2018)............................................2
NCR Corp. v. George A. Whiting Paper Co.,
768 F.3d 682 (7th Cir. 2014)..................................6
Niagara Mohawk Power Corp. v. Chevron
U.S.A., Inc.,
596 F.3d 112 (2d Cir. 2010) ...................................3
Pereira v. Sessions,
138 S. Ct. 2105 (2018)............................................2
Refined Metals Corp. v. NL Industries Inc.,
937 F.3d 928 (7th Cir. 2019)..............................5, 6

iv
TABLE OF AUTHORITIES—Continued
Page(s)
United States v. Atlantic Research Corp.,
551 U.S. 128 (2007) ................................................2
United States v. Burlington Northern &
Santa Fe Railway Co.,
520 F.3d 918 (9th Cir. 2008), rev’d, 556
U.S. 599 (2009).......................................................2
United States v. Taylor,
752 F.3d 254 (2d Cir. 2014) ...................................3
STATUTES
42 U.S.C. § 9601(23) ....................................................8
42 U.S.C. § 9601(24) ....................................................8
42 U.S.C. § 9601(25) ....................................................8
42 U.S.C. § 9613(f)(3)(B) .......................................8, 10
OTHER AUTHORITY
Black’s Law Dictionary (11th ed. 2019) ...................11

INTRODUCTION
The United States’ response confirms that
certiorari is warranted. The United States does not
deny that the CERCLA provisions at issue here are
critical to the operation of the Superfund program. It
does not deny that this Court routinely intervenes
when the circuits have split on the meaning of key
CERCLA provisions. It admits that the circuits are
split on the first question presented. BIO 10. And it
acknowledges that the result reached by the D.C.
Circuit below is “‘harsh’” (id. at 22) for Guam, which
is now left on the hook for a cleanup bill that would
amount to a trillion dollar outlay for the Federal
Government, even though the United States itself
built the dumpsite at issue and used it for decades to
dump toxic waste generated by the Navy. Pet. 24.
That is reason enough to grant certiorari.
But there is more. As the United States itself
repeatedly stressed in pursuing an interlocutory
appeal in this case, the circuits are also split on the
second question presented. Pet. 12, 17-18; see, e.g.,
Add. 8a-9a (identifying the “circuit split” produced by
“conflicting statutory interpretations” on the second
question); id. at 16a (emphasizing “sharp split of legal
authority” on second question); id. at 26a-31a
(detailing “circuit split” on second question).1
Remarkably, the United States now attempts to deny
that circuit conflict. BIO 10, 18-21. But the same
cases the United States relied on below to advance the
conflict now refute its effort to deny it.
Certiorari is warranted to resolve these circuit
conflicts. The United States does not deny that the
1

Excerpts from the relevant briefs are appended hereto.

2
issues are cleanly presented. The parties have clearly
joined battle on the merits. And the importance of
this case—both for the administration of CERCLA
and for Guam—underscore the need for review.
ARGUMENT
A. The Circuits Are Split On Both Questions
1. The United States concedes (at 10) that “the
first question presented is the subject of a circuit
conflict.”
The D.C. Circuit—after expressly
acknowledging the “‘split,’” Pet. App. 16a—joined the
Third, Seventh, and Ninth Circuits in holding that a
non-CERCLA settlement can trigger CERCLA
Section 113(f)(3)(B), while the Second Circuit has
repeatedly held to the contrary. Pet. 14-17.
The United States calls the conflict “lopsided.”
BIO 14. But the interest in maintaining uniformity
of federal laws does not depend on the extent of the
conflict, and this Court thus routinely grants
certiorari to resolve “lopsided” splits.2 The United
States itself asked this Court to resolve a 3-1 split
implicating the same CERCLA provisions at issue
here in United States v. Atlantic Research Corp., 551
U.S. 128, 133-34 (2007).
Particularly given
“CERCLA’s ‘policy favoring national uniformity,’”
resolving “inter-circuit conflicts” over the meaning of
its core provisions “is of paramount importance.”
United States v. Burlington N. & Santa Fe Ry. Co.,

2

See, e.g., Barton v. Barr, 140 S. Ct. 1442, 1447-48 (2020) (41 split); Intel Corp. Inv. Policy Comm. v. Sulyma, 140 S. Ct. 768,
775 & n.3 (2020) (6-1 split); Pereira v. Sessions, 138 S. Ct. 2105,
2113 & n.4 (2018) (6-1 split); Lagos v. United States, 138 S. Ct.
1684, 1687 (2018) (5-1 split); Honeycutt v. United States, 137 S.
Ct. 1626, 1631 & n.1 (2017) (5-1 split).

3
520 F.3d 918, 952 (9th Cir. 2008) (Bea, J., dissenting)
(citation omitted), rev’d, 556 U.S. 599 (2009).
The United States also suggests that the Second
Circuit has “signaled its willingness to reconsider” its
position. BIO 14-15 (citing Niagara Mohawk Power
Corp. v. Chevron U.S.A., Inc., 596 F.3d 112, 126 n.15
(2d Cir. 2010)). Hardly. The footnote in Niagara
Mohawk merely acknowledges—in dicta, as the
footnote itself recognizes—an argument in a footnote
in an amicus brief addressed to a different question.
596 F.3d at 126 n.15 (quoting Gov’t Amicus Br. 15 n.4,
Niagara Mohawk, 596 F.3d 112 (No. 08-3843), 2008
WL 10610074). Moreover, the court said nothing
about its “willingness” to do anything. For a circuit
notoriously reluctant to convene en banc, see United
States v. Taylor, 752 F.3d 254, 255-57 & n.1 (2d Cir.
2014) (Cabranes, J., dissenting), the dicta of a single
three-judge panel—one of whom was a district court
judge sitting by designation—hardly shows the
circuit’s “willingness” to revisit a longstanding
position it has repeatedly affirmed in precedential
decisions. BIO 15; see Pet. 15-16.
The important point is that the United States
concedes (at 10, 14) that the actual law of the Second
Circuit “conflict[s]” with the law in other circuits.
That admitted conflict warrants review.
2. The circuits are also split on the second
question presented: Whether a settlement “resolve[s]
. . . liability” under Section 113(f)(3)(B) if it explicitly
disclaims any liability determination and leaves the
settling party exposed to future liability. Pet. 17-20.
The United States’ remarkable attempt (at 18-22) to
deny that conflict before this Court fails.

4
a. In pursuing an interlocutory appeal in this
case, the United States explicitly and repeatedly
recognized the “circuit split” produced by “the
conflicting statutory interpretations and different
outcomes in both circuit and district courts” on the
second question presented. Add. 8a-9a; see id. at 15a16a (recognizing “clear differences of opinion in the
courts of appeal” and “sharp split of legal authority”);
id. at 22a, 26a-31a (recognizing “[t]he existence of a
circuit split” on the “controlling” question of “what it
means to ‘resolve . . . liability’ for ‘some or all of a
response action’ under Section 113(f)(3)(B)”). The
United States made these representations even after
“coordinat[ing] its legal position” with the Solicitor
General’s Office, id. at 17a-18a, including in a D.C.
Circuit brief filed by three of the attorneys who signed
the BIO here. Id. at 34a; see id. at 22a, 26a-31a.
The closest the United States comes to
acknowledging its stunning about-face is its passing
claim (at 21-22) that it merely noted circuit “tension”
in seeking an interlocutory appeal, but then changed
course in its D.C. Circuit “merits briefing.” That in
itself would be a classic bait-and-switch. Yet, even
that is false. As quoted above, the United States
consistently represented that there was a direct
“circuit split,” not simply “tension.” And the very first
page of its merits brief acknowledged that circuit
conflict, urging the D.C. Circuit to follow “the Ninth
Circuit’s construction of Section 113(f)(3)(B),” rather
than the contrary constructions adopted by “the Sixth
and Seventh Circuits.” Gov’t C.A. Br. 1.
The Court should reject the United States’
disingenuous attempt to disavow the very circuit
conflict it advanced below.

5
b. In any event, the circuit conflict is real. The
Sixth and Seventh Circuits have both “draw[n] a
bright line” for settlements with liability disclaimers
and conditional liability releases: They foreclose the
application of Section 113(f)(3)(B). Florida Power
Corp. v. FirstEnergy Corp., 810 F.3d 996, 1008 (6th
Cir. 2015); see Refined Metals Corp. v. NL Indus. Inc.,
937 F.3d 928, 931 (7th Cir. 2019) (these “two factors”
together are “dispositive” under Bernstein v. Bankert,
733 F.3d 190, 212-13 (7th Cir. 2012)). The Ninth
Circuit specifically “disagree[d] with the Sixth and
Seventh Circuits’ holdings in Florida Power and
Bernstein” regarding the “meaning of the phrase
‘resolved its liability.’” Asarco LLC v. Atlantic
Richfield Co., 866 F.3d 1108, 1123-25 (9th Cir.
2017). And the D.C. Circuit below likewise rejected
the Sixth and Seventh Circuits’ position and chose,
instead, to align with the Ninth Circuit. Pet. App.
23a-24a (citing Asarco, 866 F.3d at 1123-24). The
district court below explained this “clear” “split” in
detail. Pet. App. 38a-39a; see id. at 73a-85a.
The United States’ late-breaking attempt (at 1920) to reconcile these decisions now is unavailing.
Relying on the dissent in Florida Power, the United
States says that “[t]he Sixth Circuit has sometimes
held that a settlor had ‘resolved [its] liability’ within
the meaning of Section 113(f)(3)(B) even though the
settlement contained provisions similar to those” in
the 2004 CWA consent decree. BIO 20 (alteration in
original) (quoting Florida Power, 810 F.3d at 1017-18
(Suhrheinrich, J., dissenting)). But the majority in
Florida Power vigorously disagreed, reiterating that
court’s “bright line” regarding such provisions. 810
F.3d at 1006-09. That is the law in the Sixth Circuit.

6
Likewise, the United States claims that the
Seventh Circuit “held” in NCR Corp. v. George A.
Whiting Paper Co., 768 F.3d 682, 692 (7th Cir. 2014),
that a settlement can trigger Section 113(f)(3)(B)
“even if the covenant not to sue is conditioned on
satisfactory performance.” BIO 20. That is wrong, as
the Seventh Circuit itself has stressed: “In NCR, the
only factor that the court explicitly discussed as a
reason for distinguishing the settlement from the one
in Bernstein was the immediately effective (as opposed
to conditional nature) of the covenant not to
sue.” Refined Metals, 937 F.3d at 931 (second
emphasis added) (citing NCR, 768 F.3d at
692). There is “no doubt that [in NCR] the
immediately effective covenant not to sue was the
dispositive point.” Id. (emphasis added). So too
here—the conditional covenant would have been
dispositive had this case been in the Seventh Circuit.
Finally, the United States tries (at 18-19) to
reframe the issue as one of contract interpretation.
But as the United States itself explained below, this
is a “question of statutory construction, namely how
to properly interpret CERCLA § [113](f)(3)(B).” Add.
4a. Indeed, the “sole question” here is “whether the
2004 consent decree ‘resolve[d]’ Guam’s ‘liability . . .
for some or all of a response action’ within the
meaning of Section 113”—the answer to which turns
on “statutory text and purpose.” Gov’t C.A. Br. 18, 23
(alterations in original) (emphasis added).
Accordingly, the cases in the conflict reach
different results not because of different settlement
provisions, but because of different statutory
interpretations
applied
to
indistinguishable
settlement provisions.
And despite vaguely
suggesting that the cases in the split involved

7
“different decrees” with different provisions, BIO 1819, the United States does not identify any material
differences. There are none. As the district court
detailed, the provisions at issue here are materially
identical to those in the cases from “[t]he Sixth,
Seventh, and Ninth Circuits” that form the circuit
split. Pet. App. 73a; see id. at 94a (“This Court has
dutifully compared the clauses in each of th[e] cases”
and found no “distinction [that] matters”).
The D.C. Circuit’s decision turned on whether a
settlement containing such provisions “resolve[s] . . .
liability” “within the meaning of section 113(f)(3)(B).”
Id. at 24a.
That is a question of statutory
interpretation—one on which the circuits are split.
B. The
Questions
Presented
Exceptionally Important

Are

The United States does not dispute the importance
of the questions presented to the Superfund program.
Pet. 21-22. It does not dispute that this Court has
repeatedly granted certiorari to resolve confusion
over the meaning and scope of Section 113 and related
provisions. Id. at 22. And it does not contest the
grave importance of this case for the people of Guam.
Id. at 24-25. All this strongly supports review.
The United States does try to minimize its own
decades-long role in contaminating the site by
suggesting (at 4) that it ended in 1950; but, in fact,
the United States continued to dump waste for
decades thereafter. Pet. 7. And while the United
States argues (at 23) that Guam is at fault too, it
misses the point: even assuming Guam shares some
responsibility, the decision below saddles Guam—
alone—with a staggering $160 million bill for the
cleanup of a dump built and exploited by the United

8
States for decades. That sum exceeds the combined
yearly budget for Guam’s Department of Public
Health and Social Services, Police Department, Fire
Department, Department of Public Works, Solid
Waste Authority, and Environmental Protection
Agency. The staggering consequences of this case for
Guam strongly support certiorari. Pet. 24-25.
Significantly, the United States also never
disputes that this case provides a clean vehicle for
resolving the questions presented. Id. at 25. Nor
could it, given that the United States recognized that
these were “controlling legal questions” in pursuing
an interlocutory appeal. Add. 26a. Both questions
were pressed and passed on below. This is an ideal
vehicle to decide these important issues.
C. The Decision Below Is Wrong
The United States’ arguments on the merits are
premature at this stage, but in any event only
underscore the need for this Court’s review.
1. On the first question, the United States claims
that Section 113(f)(3)(B) encompasses any settlement
that “requires a settling party to incur the costs of a
CERCLA ‘response action,’” which the United States
defines as “any action to ‘remove’ or ‘remedy’ releases
of substances.” BIO 10-11 (citation omitted). But this
paraphrasing rewrites the statute.
Section
113(f)(3)(B) actually says that the settlor must have
“resolved its liability” for—not merely “incur the costs
of”—a CERCLA response action.
42 U.S.C.
§ 9613(f)(3)(B) (emphasis added). And CERCLA
defines “response” to mean an action to “remove” or
“remedy” releases of “hazardous substances.” Id.
§ 9601(23)-(25) (emphasis added). The United States

9
omits “hazardous,” but that is an important limitation
on what qualifies as a response action.
Here, whatever costs Guam incurred, EPA
repeatedly assured Guam that it was not compelling
a CERCLA response action. Pet. 8-10. And because
the CWA consent decree was not a CERCLA
settlement, it says nothing about any hazardous
substance—the touchstone of a CERCLA response
action. Pet. 28 n.8; cf. Eagle-Picher Indus., Inc. v. U.S.
EPA, 759 F.2d 922, 932 (D.C. Cir. 1985) (CERCLA
imposes “liab[ility] for cleanup of a release of a
‘hazardous substance,’ but not for the cleanup of a
release of a ‘pollutant or contaminant’”).
Permitting non-CERCLA settlements to trigger
CERCLA contribution also thwarts what the United
States agrees (at 12) is a necessary component of
contribution—“resolv[ing] a common liability.” The
United States says that this liability need not be
liability “under CERCLA.” BIO 12-13 (emphasis
omitted). But that assertion flatly contradicts the
United States’ own arguments—in this case and
others—that Section 113(f)(3)(B) contribution is not
available unless the settlement resolves the nonsettling party’s liability under CERCLA. Pet. 26-27,
29. The United States makes no effort to reconcile
those positions. Nor does it address the bizarre result
produced by its contradiction: A consent decree
entered under a CWA provision from which the
United States is immune from liability somehow
resolved the United States’ liability. Id. at 27-28.3
3

Contrary to the United States’ suggestion (at 12), whether
a settlement triggers Section 113(f)(3)(B) is a different question
than whether a cost-recovery action is authorized under Section
107(a). Section 113(f)(3)(B) concerns the liability resolved in a

10
Like the D.C. Circuit, the United States (at 11)
ultimately grounds its interpretation in a negative
inference drawn from Section 113(f)(1). But as Guam
explained, that argument ignores that “response
action” is a CERCLA-specific term. Pet. 28-29.
2. On the second question, the United States’
position strips “resolved . . . liability” of meaning. 42
U.S.C. § 9613(f)(3)(B).
According to the United
States, an agreement to take an action necessarily
resolves liability regardless of whether the agreement
(a) admits the settling party’s liability to take the
action, (b) disclaims any such liability, or (c) says
nothing about liability at all. That can’t be right.
Here, the United States claims that a consent decree
entered “without any finding of liability or admission
of liability against or by the Government of Guam,”
Pet. App. 140a (emphasis added), somehow “resolved”
Guam’s liability. That position “warps” the statutory
text “beyond recognition.” Id. at 90a.
The United States confuses “agree[ing] to perform
certain actions . . . to remedy an instance of
environmental contamination” with “settl[ing] the
issue of liability for that contamination.” Bernstein,
733 F.3d at 212. A party may agree to take an action
for any number of reasons, including simply to “avoid
protracted litigation.” Pet. App. 140a. Moreover, the
United States misquotes Black’s definition of
“liability”—“[t]he quality, state, or condition of being
settlement, while Section 107(a) concerns the action actually
taken. Moreover, the case comes to the Court on the “premise
that ‘Guam is permitted to proceed against the United States for
full cost recovery under section 107(a).’” Pet. App. 8a (quoting
Pet. App. 68a)). The only question here is whether a nonCERCLA settlement like the 2004 CWA decree can trigger
Section 113(f)(3)(B). See BIO (I).

11
legally obligated or accountable,” Liability, Black’s
Law Dictionary (11th ed. 2019) (emphasis added)—by
inexplicably omitting “legally.” BIO 15. That a party
has agreed to take an action does not mean that the
parties determined liability as to that action—i.e., an
independent legal obligation to perform the act.
Even if an agreement to undertake an act in a
settlement could be viewed as a “liability” (apart from
any independent legal obligation), an agreement that
disclaims the resolution of future liability—including
CERCLA liability—through conditional releases of
liability and reservations of rights cannot “resolve”
liability. Pet. 31-34. Such provisions make clear that
any liability “established” for actions “identified in the
decree” (BIO 17) will not be “resolved” “until
performance [is] complete.” Florida Power, 810 F.3d
at 1002-03 (quoting Bernstein, 733 F.3d at 212). The
United States’ contrary interpretation (at 15-16)
flouts the plain meaning of “resolved.”
The United States protests that this argument
“would ‘nullify [S]ection 113(f)(3)(B) in a host of
cases’” because of its “three-year limitations period.”
BIO 16-17 (citation omitted). But the only cases in
which Section 113(f)(3)(B) would be “nullif[ied]” are
cases in which the statute does not apply—cases in
which liability is not “resolved” when the agreement
is signed (and the limitations period begins to run).
Pet. 32-33. Settling parties in those cases are not
“den[ied]” relief (BIO 17)—they can recover costs
under Section 107(a), as Guam tried to do here. Pet.
32 n.9. Only by ignoring Section 113(f)(3)(B)’s text
and Section 107(a)’s existence does the United States
arrive at its supposedly “anomalous result.” BIO 17.

12
In the end, the United States’ merits arguments
simply confirm that the questions presented are
squarely joined and ripe for this Court’s review.
CONCLUSION
The petition should be granted.
Respectfully submitted,
LEEVIN T. CAMACHO
Attorney General
JAMES L. CANTO II
Deputy Attorney General
OFFICE OF THE ATTORNEY
GENERAL
590 S. Marine Corps Drive
Suite 901
Tamuning, Guam 96913
JOHN D.S. GILMOUR
WILLIAM J. JACKSON
FABIO C. DWORSCHAK
KELLEY DRYE
& WARREN LLP
515 Post Oak Boulevard
Suite 900
Houston, TX 77027

GREGORY G. GARRE
Counsel of Record
ROMAN MARTINEZ
BLAKE E. STAFFORD
LATHAM & WATKINS LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2207
gregory.garre@lw.com
BEZALEL STERN
KELLEY DRYE
& WARREN LLP
3050 K Street, NW
Suite 400
Washington, DC 20007

Counsel for Petitioner
December 23, 2020

ADDENDUM

ADDENDUM
TABLE OF CONTENTS
Page
United States’ Memorandum of Points and
Authorities in Support of Its Motion to
Certify
the
Dismissal
Orders
for
Interlocutory Appeal Under 28 U.S.C.
§ 1292(b)
and
Request
for
Stay,
Government of Guam v. United States, No.
17-cv-2487 (D.D.C. Dec. 6, 2018), ECF No.
49-1 (excerpt) .......................................................1a
United States’ Reply in Support of Its Motion
to Certify the Dismissal Orders for
Interlocutory Appeal Under 28 U.S.C.
§ 1292(b), Government of Guam v. United
States, No. 17-cv-2487 (D.D.C. Dec. 27,
2018), ECF No. 53 (excerpt) ..............................14a
Petition for Permission to Appeal Pursuant to
28 U.S.C. § 1292(b), Government of Guam
v. United States, No. 19-8001 (D.C. Cir.
Mar. 11, 2019) (excerpt).....................................19a

1a
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
GOVERNMENT OF
GUAM,
Plaintiff,

1:17-cv-02487-KBJ
[ECF No. 49-1]

v.
UNITED STATES OF
AMERICA,
Defendant.

THE UNITED STATES’ MEMORANDUM OF
POINTS AND AUTHORITIES IN SUPPORT OF
ITS MOTION TO CERTIFY THE DISMISSAL
ORDERS FOR INTERLOCUTORY APPEAL
UNDER 28 U.S.C. § 1292(b) AND REQUEST
FOR STAY
***
In accordance with Local Rule 7(a), the United
States respectfully submits this memorandum in
support of its motion to certify the denial of the
United States’ motion to dismiss Guam’s amended
complaint for interlocutory appeal and request to stay
all proceedings pending a decision by the United
States Court of Appeals for the D.C. Circuit.1
1

In the Parties’ Joint Status Report, dated October 19, 2018,
the United States promptly advised the Court that it was
evaluating a potential interlocutory appeal. See ECF No. 40.
This process involved coordinating with interested federal

2a
I. INTRODUCTION
***
The purpose of this motion is not to re-argue the
issues presented in the motion to dismiss. Rather, the
United States respectfully requests that the Court
certify its orders for immediate appeal under 28
U.S.C. § 1292(b).2 As explained below, the Court’s
Rule 12(b)(6) decision involves controlling questions
of law and there are substantial grounds for
differences of opinion concerning the rulings on those
issues. An immediate appeal to the United States
Court of Appeals for the D.C. Circuit may materially
advance the ultimate disposition of this CERCLA
litigation. If the D.C. Circuit accepts the appeal, a
agencies and seeking the necessary approvals within the United
States Department of Justice, including from the Solicitor
General. Although there is no specific deadline for seeking an
interlocutory appeal, this request is being made now to ensure
timeliness, pending the Solicitor General’s determination on
whether to authorize an appeal on behalf of the United States.
As stated in the motion, we will promptly advise the Court when
that determination is made.
2 28 U.S.C. § 1292(b) reads as follows: “When a district judge,
in making in a civil action an order not otherwise appealable
under this section, shall be of the opinion that such order
involves a controlling question of law as to which there is
substantial ground for difference of opinion and that an
immediate appeal from the order may materially advance the
ultimate termination of the litigation, [the judge] shall so state
in writing in such order. The Court of Appeals which would have
jurisdiction of an appeal of such action may thereupon, in its
discretion, permit an appeal to be taken from such order, if
application is made to it within ten days after the entry of the
order: Provided, however, That application for an appeal
hereunder shall not stay proceedings in the district court unless
the district judge or the Court of Appeals or a judge thereof shall
so order.”

3a
reversal may result in the termination of this action
and save both the Court and the Parties the enormous
burden and expense of conducting discovery
regarding the Ordot Dump’s operations from World
War II to the present, as well as save the additional
costs of litigating the claims and defenses through
summary judgment, a lengthy bench trial, and a
possible appeal after a final judgment is entered.
II. THE ELEMENTS OF § 1292(b) ARE EASILY
MET AND CERTIFIYING THE MOTION TO
DISMISS
DECISION
FOR
AN
INTERLOCUTORY
APPEAL
WILL
FURTHER THE SOUND ADMINSTRATION
OF JUSTICE.
Appellate review ordinarily must await entry of a
final judgment. However, district courts possess the
discretion to allow a party to appeal a non-final order
under 28 U.S.C. § 1292(b). See Nat’l Veterans Legal
Servs. Program v. United States, 321 F. Supp. 3d 150,
152 (D.D.C. 2018); APCC Servs. Inc. v. AT& T Corp.,
297 F. Supp. 2d 101, 104 (D.D.C. 2003). A trial court
may certify an order for interlocutory appeal when
three conditions are met: (1) the order involves a
controlling question of law, (2) a substantial ground
for difference of opinion concerning the ruling exists,
and (3) an immediate appeal may materially advance
the disposition of the litigation. See Howard v. Office
of the Chief Admin. Officer of the U.S. House of Reps.,
840 F. Supp. 2d 52, 55 (D.D.C. 2012) (granting a
request to allow interlocutory review); GTE New
Media Servs. Inc. v. Ameritech Corp., 44 F. Supp. 2d
313, 316 (D.D.C. 1999) (same). Here, the three
elements Congress specified in § 1292(b) are clearly
satisfied and allowing the Parties to present the

4a
issues raised in the motion to dismiss to the D.C.
Circuit will promote judicial economy and efficiency.
See generally Am. Council of the Blind v. Paulson, 525
F.3d 1256, 1265 (D.C. Cir. 2008) (accepting an
interlocutory appeal pursuant to 28 U.S.C. § 1292(b)
because “[w]ere [the D.C. Circuit] to conclude that the
[appellant] should have prevailed on summary
judgment, [its] consideration of [the] matter would
eliminate the need for further proceedings and
preserve judicial resources”); see also Ahrenholtz v.
Bd. of Trustees of the Univ. of Ill., 219 F.3d 674, 677
(7th Cir. 2000) (emphasizing that it is the “duty” of
district and appellate courts to allow an immediate
appeal when the statutory criteria are met).
A. The
Decision
Involved
Questions of Law.

Controlling

The ruling on the United States’ motion to dismiss
encompasses several controlling questions of law, any
one of which satisfies § 1292(b)’s first element. The
United States’ challenge to the legal sufficiency of
Guam’s complaint involves a threshold question of
statutory construction, namely how to properly
interpret CERCLA § 9613(f)(3)(B). See, e.g., ECF No.
27-1 at 21-26 and ECF No. 33 at 19-25 (explaining the
United States’ legal position on this issue). Whether
the 2004 judicial settlement with the United States
allowed Guam to pursue a CERCLA contribution
claim under CERCLA § 9613(f)(3)(B) is a legal issue
that is subject to de novo review by the D.C. Circuit.
See, e.g., Solutia, Inc. v. McWane, Inc., 672 F.3d 1230,
1235 (11th Cir. 2012) (“Whether § 107(a) of CERCLA
grants parties a right to recover cleanup costs that
they directly incur in complying with a consent decree
is a matter of statutory interpretation subject to de

5a
novo review.”); see also Nat’l Veterans, 321 F. Supp.
3d at 152 (granting a petition for interlocutory appeal
on an issue of statutory construction).
In addition, the dismissal decision turned on a legal
interpretation of the 2004 consent decree’s terms.
The opinion discussed the legal significance of Guam’s
non-admission of liability in the consent decree, the
scope of the reservation of rights, whether the release
Guam obtained resolved any liability to perform the
alleged response actions, and whether the release was
conditioned on Guam fully performing all its
obligations at the Ordot Dump. See ECF No. 33 at 2325. The Court’s rulings on the meaning of the consent
decree’s terms are conclusions of law. As with the
statutory construction questions, the D.C. Circuit will
interpret the consent decree’s terms de novo on
appeal. See United States v. Volvo Powertrain Corp.,
758 F.3d 330, 337 (D.C. Cir. 2014) (“we review the
district court’s construction of the consent decree . . .
de novo”); see also NCR Corp. v. George A. Whiting
Paper Co., 768 F.3d 682, 692 (7th Cir. 2014) (refusing
to interpret § 9613(f)(3)(B) so narrowly that “no
consent order could resolve a party’s liability until the
work under it was complete”).
Under § 1292(b), a question of law is controlling
when a reversal would be required if decided
incorrectly. Howard, 840 F. Supp. 2d at 55. In other
words, controlling questions of law include issues that
would terminate an action if the district court’s
decision were reversed. APCC, 297 F. Supp. 2d at
105.
Even a procedural determination that
significantly impacts the action, but is not dispositive,
can be considered a controlling issue if it would save
the court and litigants time and expense. Id. Because
the United States raised dispositive legal questions at

6a
the outset in a motion to dismiss and the ruling
allowed Guam’s case to proceed, there is no doubt that
the legal issues presented are “controlling” for
purposes of § 1292(b). A different construction of
CERCLA § 9613(f)(3)(B) or how the 2004 consent
decree should be read in light of CERCLA and Guam’s
specific allegations (i.e., arguing that the settlement
required Guam to perform CERCLA response actions)
would likely change the outcome and terminate the
case. If the D.C. Circuit agrees with the United
States’ longstanding interpretation of CERCLA
§ 9613(f)(3)(B) and applies the plain meaning to the
2004 consent decree, Guam’s claims should be
dismissed. Guam’s CERCLA action would be barred
by the three-year statute of limitations if the D.C.
Circuit concludes that the 2004 consent decree
resolved at least some of Guam’s liability within the
meaning of CERCLA § 9613(f)(3)(B) to perform the
alleged response actions at the Ordot Dump. See
Trinity Indus. Inc. v. Chicago Bridge & Iron Co., 735
F.3d 131, 136 (3d Cir. 2013) (“The statutory language
of [§ 9613(f)(3)(B)] requires only the existence of a
settlement resolving liability to the United States” for
a response action); ASARCO, LLC v. Celanese
Chemical Co., 792 F.3d 1203, 1210 (9th Cir. 2015)
(“[A]ny contribution claim is subject to the three-year
statute of limitations . . . . When a person resolves its
liability to the United States or a State through an
administrative or judicially approved settlement, a
right to assert a contribution claim against other
PRPs also accrues.”).

7a
B. There Are Substantial
Differences of Opinion.

Grounds

for

There also are substantial grounds for differences
of opinion concerning the legal issues addressed in the
Court’s ruling.
Federal courts have frequently
observed that CERCLA is a complex statutory regime
and that some provisions are not a model of clarity.
See, e.g., Chubb Custom Ins. Co. v. Space
Systems/Loral, Inc., 710 F.3d 946, 956-58 (9th Cir.
2013) (noting that CERCLA is a “complex regulatory
statute” with a web of sections, subsections,
definitions, exceptions, defenses, and administrative
provisions); Eagle-Picher Indust., Inc. v. EPA, 759
F.2d 922, 925 (D.C. Cir. 1985). Relative to other
courts, the D.C. Circuit has decided few CERCLA
cases and there is virtually no relevant case law in
this Circuit on the interplay between CERCLA’s cost
recovery and contribution provisions. Indeed, the
D.C. Circuit has not addressed the dispositive legal
questions presented by the United States’ motion to
dismiss, including what is sufficient to “resolve” at
least some liability for purposes of CERCLA
§ 9613(f)(3)(B), or how a federal consent decree
reasonably should be interpreted consistent with
common sense and in light of CERCLA’s provisions
and policies. As this Court has recognized, a “dearth
of precedent” within the controlling jurisdiction often
is sufficient to show that there are grounds for
differences of opinion concerning a legal ruling.
APCC, 297 F. Supp. 2d at 107; see also Howard, 840
F. Supp. 2d at 55-56 (discussing the fractured
appellate opinions on a controlling issue).
In
performing its de novo review, the D.C. Circuit is free
to make its own independent assessment on the legal
viability of Guam’s CERCLA claims.

8a
Conflicting decisions in other circuits can establish
that there is room for different judicial opinions
concerning the controlling questions of law. APCC,
297 F. Supp. 2d at 107. Here, without the benefit of
guidance from the D.C. Circuit, the Court’s decision
grappled with the conflicting views espoused by the
Ninth and Sixth Circuits regarding the correct
interpretation of CERCLA § 9613(f)(3)(B). See, e.g.,
ECF No. 38 at 24-31. The Court chose to follow
Florida Power Corp. v. First Energy Corp, 810 F.3d
996 (6th Cir. 2015), a decision that the United States
argued was incorrect and inconsistent with both
CERCLA’s policies and EPA’s longstanding CERCLA
settlement practices. The circuit split nevertheless
remains relevant and counsels in favor of allowing an
interlocutory appeal under § 1292(b). See In re Cintas
Corp. Overtime Pay Arbitration Lit., No. M:06-cv01781-SBA, 2007 WL 1302496, at *2 (N.D. Cal. May
2, 2007) (granting a motion to certify an interlocutory
appeal in light of a circuit split on a legal issue that
was unresolved within the governing circuit).
Moreover, there is a strong dissent to the Sixth
Circuit’s panel opinion, see Florida Power, 810 F.3d at
1016 (Suhrheinrich, J., dissenting), further
demonstrating that reasonable jurists on the same
appellate court can and do disagree regarding the
dispositive legal questions presented by the United
States’ motion to dismiss. Even the holdings of the
Sixth Circuit decisions that preceded Florida Power
are subject to different interpretations within the
Sixth Circuit and the different outcomes in those
cases are difficult to reconcile, as explained in the
Florida Power dissent and by the subsequent Ninth
Circuit decision in Asarco. See Asarco LLC v. Atlantic
Richfield Co., 866 F.3d 1108, 1124-25 (9th Cir. 2017)

9a
(disagreeing with Sixth and Seventh Circuit decisions
finding that the United States “must divest itself of
its ability to enforce” a settlement by forgoing
standard reservations of rights in a consent decree).
Although the Court cited Bernstein v. Bankert, 733
F.3d 190 (7th Cir. 2013), see ECF No. 38 at 20-22, a
recent decision by a district court within the Seventh
Circuit read CERCLA and the relevant cases much
differently and ruled consistently with the legal
arguments the United States presented here. See
Refined Metals Corp. v. NL Indust., Inc., No. 1:17-cv02565- SEB-TAB, 2018 WL 4592110, at *4-6 (S.D.
Ind. Sept. 25, 2018). Specifically, Refined Metals held
that a Clean Air Act and RCRA consent decree
entered with the United States resolved at least some
of the plaintiff’s liability to perform response actions
and that the plaintiff’s CERCLA action was untimely
because it had not filed a lawsuit within three years
of the settlement. Id. (“The point is that Refined
unconditionally assumed a legal obligation and
unconditionally received a legal benefit in order to
resolve a legal dispute — not that it pronounced a
legal mea culpa.”). Given the conflicting statutory
interpretations and different outcomes in both circuit
and district courts, there are adequate grounds to
believe that the D.C. Circuit – in conducting its own
de novo review – may align with the majority view on
these legal questions and find substantial merit in the
United States’ Rule 12(b)(6) arguments.3
3

The Court did not directly address several of Guam’s legal
arguments, including its sweeping assertion that a Clean Water
Act consent decree can never constitute a settlement for
purposes of CERCLA § 9613(f)(3)(B). See ECF No. 38 at 35, n.13.
Although the D.C. Circuit has not ruled on this question of law,
the United States believes that the D.C. Circuit will follow the

10a
In sum, in the absence of controlling law to the
contrary, the D.C. Circuit may very well adopt the
reasoning in Asarco, which explained why the Ninth
Circuit believed that Florida Power was wrongly
decided and would undermine CERCLA’s goals. See
generally Kahl v. Bureau of Nat’l Aff., Inc., Civil
Action No. 09-0635 (KBJ), 2015 WL 13546450, at *2
(D.D.C. Aug. 21, 2015) (granting a petition for
interlocutory review based on the uncertainty of
determining the D.C. Circuit’s views on the intent
element of a defamation claim).4
Thus,
notwithstanding the Court’s understandable belief in
its ruling, substantial grounds for differences of
opinion exist concerning the legal sufficiency of
Guam’s CERCLA claims.
C. An Interlocutory Appeal Will Advance The
Efficient Disposition Of This Complex
CERCLA Matter.
An immediate appeal of the Court’s denial may
materially advance the disposition of the litigation. If
the D.C. Circuit finds the interpretation of CERCLA
§ 9613(f)(3)(B) set forth in the subject orders is
erroneous, a reversal is likely and Guam’s case should
be dismissed with prejudice. See Nat’l Veterans, 321
Third Circuit’s decision in Trinity, 735 F.3d at 136-37, and the
Ninth Circuit’s decision in Asarco, 866 F.3d at 1118-20, when
given the opportunity. See also Refined Metals, 2018 WL
4592110, at *4-6 (rejecting the same “position of doubtful
vitality” advocated by Guam).
4 Kahl illustrates that interlocutory appellate review can
promote efficiency and benefit the district court and parties. On
appeal, the D.C. Circuit clarified the applicable legal standards
and reversed the denial of summary judgment, thereby avoiding
an unnecessary trial on Kahl’s defamation claims. See 856 F.3d
106 (D.C. Cir. 2017).

11a
F. Supp. 3d at 155 (“As previously explained, if the
Court’s Order is reversed in the government’s favor,
the litigation will be over.”); Howard, 840 F. Supp. 2d
at 57 (“Conversely, if, post judgment, the Court of
Appeals were to conclude that it was error to allow
Howard’s transfer claims to go forward, then the
legislative branch would have been improperly
subjected to the burden of defending those claims.”).
Moreover, appellate review of the decision now would
be efficient because discovery will cover issues
ranging from World War II military engagements on
the Island to the many decades of Guam’s subsequent
waste disposal operations at the Ordot Dump. There
likely will be additional dispositive motions practice
at the summary judgment stage of the case and a
bench trial (if necessary) will consume judicial
resources. The fact that Guam is located thousands
of miles away from District of Columbia (and Guam
did not choose to the file its lawsuit on Guam) makes
this a more difficult, expensive, and time-consuming
matter to litigate. As noted above, in addition to
Guam’s government agencies and instrumentalities,
many large businesses and commercial interests sent
waste to the Ordot Dump for decades. Other parties
that arranged for the disposal of hazardous waste at
the Ordot Dump or transported such waste to the
Dump face CERCLA liability and may be joined in
this case. In sum, allowing an interlocutory appeal
could save both Parties substantial time and money
as well as conserve the judicial resources that
otherwise may be necessary to supervise discovery,
decide dispositive motions at the summary judgment
stage, and preside over what could be a lengthy bench
trial. See Nat’l Veterans, 321 F. Supp. 3d at 155
(finding that different outcomes on appeal “would

12a
conserve judicial resources and save the parties from
needless expenses”); GTE, 44 F. Supp. 2d at 316
(noting that discovery would entail numerous
depositions, plus documentary discovery, and the
trial would take “several weeks”).
As a practical matter, given the large sum of money
Guam is demanding, the United States cannot lightly
abandon the dispositive legal arguments it made
without strongly considering an eventual appeal to
the D.C. Circuit. See APCC, 297 F. Supp. 2d at 100
(“it would be far better for all concerned, including
plaintiffs, to have these matters resolved now, as
opposed to sometime in the distant future”).
According to its complaint, Guam is seeking more
than $160 million. As set forth in the prior motion to
dismiss briefing and the United States’ counterclaim,
however, Guam is liable under CERCLA as both the
longtime owner and operator of the Ordot Dump. The
United States also will show that Guam operated the
Ordot Dump in violation of RCRA and the Clean
Water Act for decades. Even after entering a federal
consent decree in 2004, Guam still did not meet its
legal obligations to take corrective actions and to close
the Ordot Dump. Instead, the United States was
forced to return to the federal court to compel Guam’s
compliance with the consent decree, and the court
ultimately determined that appointing a receiver was
necessary to take over the management of Guam’s
solid waste operations. A decade later, the court has
not concluded that Guam is prepared to meet its
obligations and resume its own waste management
operations without the receiver.
Nevertheless, Guam’s allegations will require
ample discovery and Guam already has served broad
discovery requests on the United States. The case will

13a
take at least several years to litigate even under
Guam’s case management proposal. The Parties
likely will spend many thousands of hours and the
United States will incur hundreds of thousands of
dollars in discovery and expert-related expenses to
defend this CERCLA case all the way through trial,
all of which would be unnecessary if the D.C. Circuit
concludes that Guam’s CERCLA claims should have
been terminated at the motion to dismiss stage. Thus,
both the law and the equities strongly weigh in favor
of allowing an interlocutory appeal.
***

14a
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
GOVERNMENT OF
GUAM,
Plaintiff and
Counterclaim
Defendant,

1:17-cv-02487-KBJ
[ECF No. 53]

v.
UNITED STATES OF
AMERICA,
Defendant and
Counterclaim
Plaintiff.

DEFENDANT AND COUNTERCLAIM
PLAINTIFF UNITED STATES OF
AMERICA’S REPLY IN SUPPORT OF
ITS MOTION TO CERTIFY THE DISMISSAL
ORDERS FOR INTERLOCUTORY APPEAL
UNDER 28 U.S.C. § 1292(b)
The requirements for interlocutory appeal are
clearly met here. See 28 U.S.C. § 1292(b). In its
opposition, the Government of Guam (“Guam”)
concedes that one of the three statutory elements is
satisfied. See ECF No. 52 at 8 (admitting that the
Court’s dismissal order was based on a “controlling
question of law”). Guam also acknowledges that there
is room for courts to disagree on the controlling

15a
questions of law, but disputes that: (1) “substantial”
grounds for differences of opinion exist, and that: (2)
an interlocutory appeal will materially advance this
CERCLA litigation. Id. at 9-11. Guam’s arguments
are wrong on both counts.
Guam briefly questions whether the Solicitor
General will approve the United States’ appeal if the
Court grants the § 1292(b) motion. Id. at 6. That is
not an issue. As described below, the Solicitor
General has authorized the United States’ appeal in
this matter. The Government is prepared to pursue
an appeal in the D.C. Circuit upon certification of the
dismissal orders. As demonstrated in the United
States’ motion and memorandum of law, see ECF Nos.
49 & 49-1, § 1292(b) is fully satisfied and judicial
economy and efficiency strongly favor certification. If
the Court certifies the orders for appeal, a stay also is
appropriate. There is no immediate need for further
litigation in this Court or to commence burdensome
discovery if the United States is permitted to take the
next step and petition the D.C. Circuit to resolve the
dispositive legal questions raised in the United
States’ motion to dismiss.
I.

SECTION § 1292(b)’S FACTORS WEIGH
STRONGLY IN FAVOR OF ALLOWING
THE
UNITED
STATES’
INTERLOCUTORY APPEAL.
A. Substantial Grounds for Differences of
Opinion Exist

Guam’s opposition acknowledges that there is no
governing law in the D.C. Circuit on the CERCLA
issues addressed in the Court’s decision and agrees
that there are clear differences of opinion in the courts
of appeal and district courts regarding the controlling

16a
issues of law. See ECF No. 52 at 9-10. Guam simply
asserts that those differences of opinion are not
substantial. It is evident, however, that the Ninth
Circuit’s rejection of the Sixth Circuit’s statutory
interpretation and the strong dissenting opinion in
Florida
Power
describing
the
flaws
and
inconsistencies in the Sixth Circuit’s case law meet
the § 1292(b) standard. See ECF No. 49-1 at 14-16
(U.S. brief noting that there is also a more recent
district court decision in Refined Metals, which is on
appeal to the Seventh Circuit, that conflicts with the
Guam decision). The Court’s 43-page opinion noted
that various federal courts have “reached different
conclusions” on the dispositive legal issues and
discussed those differences at length. ECF No. 38 at
20, see also id. at 20-27. Given the sharp split of legal
authority on the controlling questions of law and with
de novo review on appeal, it is reasonable to believe
that the D.C. Circuit will seriously consider aligning
with the Ninth Circuit’s view of CERCLA on the
dispositive legal questions. Thus, there is ample basis
to conclude that substantial grounds for differences of
opinion exist regarding the legal sufficiency of Guam’s
CERCLA claims. See ECF No. 49-1 at 13-14. And if
the D.C. Circuit agrees with the United States that a
CERCLA contribution claim was available to Guam
following the 2004 consent decree, there is no dispute
that Guam’s action is untimely and must be dismissed
as a matter of law.
***

17a
II. THE
SOLICITOR
GENERAL
HAS
AUTHORIZED THE UNITED STATES TO
PURSUE AN APPEAL IN THE D.C.
CIRCUIT.
Guam’s opposition questions whether the United
States has the necessary approval from the Solicitor
General or if the Government will pursue an appeal
should the Court choose to certify it. See ECF No. 52
at 6. Guam has no cause for concern in this regard.
As contemplated by the Court’s Minute Order
dated December 10, 2018, we can confirm that the
Solicitor General has provided the requisite
authorization for the United States to proceed with an
appeal of the dismissal orders in this matter. The
United States’ § 1292(b) request was not illusory, as
Guam has suggested, and the Court can be assured
that the United States will diligently pursue the
appeal if this motion is granted.
Moreover, the United States sought certification
within a reasonable time after the Court’s dismissal
order and decision explaining the rationale. See
Ahrenholtz v. Bd. of Trustees of the Univ. of Ill., 219
F.3d 674, 676-77 (7th Cir. 2000) (noting that Congress
created no specific deadline for requesting a district
court’s permission to pursue an interlocutory appeal
under § 1292(b)).
The United States promptly
advised both Guam and the Court of its interest in a
potential appeal shortly after the decision, see ECF
No. 40 at 1, ¶ B.1, and provided appropriate updates
as matters progressed. See, e.g., ECF No. 48 at 7, ECF
No. 51 at 2-3. Given the need for the United States to
consult with and coordinate its legal position with
multiple federal agencies and within the Department
of Justice, including within the Environment and

18a
Natural Resources Division and the Office of the
Solicitor General, there was no inordinate delay in
filing the § 1292(b) motion three weeks ago. See, e.g.,
generally Gamboa v. City of Chicago, Case No. 3-C219, 2004 WL 2877339, at *2 (N.D. Ill. Dec. 13, 2004)
(finding an adequate explanation for a 75-day interval
before filing a § 1292(b) motion); Marriott Int’l
Resorts, L.P. v. U.S., 63 Fed. Cl. 144, 145 (2004)
(granting the United States’ motion to certify a
decision for appeal following a 74-day interval after
the district court’s order).2
***

2

The D.C. Circuit accepted the interlocutory appeal in
Marriott and reversed the district court’s ruling. See 437 F.3d
1302 (D.C. Cir. 2006). The lone case that Guam cites on
timeliness – Memphis Publishing Co. v. FBI, 195 F. Supp. 3d 1,
2-3 (D.D.C. 2012) – is inapposite. Memphis Publishing arose in
entirely different circumstances and did not consider what is a
reasonable amount of time for the United States to file a
§ 1292(b) motion in the circumstances presented here. The issue
there was whether to put the FBI’s FOIA obligations on hold
while the Solicitor General considered an appeal on a discovery
ruling. Here, the United States filed its § 1292(b) motion on
December 6, and did not come close to reaching the 125-day
period referenced in Memphis Publishing. Nor did we ask to
defer any case management obligations or seek a stay until filing
the motion.

19a
No. 19-8001
IN THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
GOVERNMENT OF GUAM,
Plaintiff-Respondent,
v.
UNITED STATES OF AMERICA,
Defendant-Petitioner.
On Petition for Permission to Appeal from the
United States District Court for the District of
Columbia (No. 1:17-cv-02487-KBJ)
PETITION FOR PERMISSION TO APPEAL
PURSUANT TO 28 U.S.C. § 1292(B)
***
INTRODUCTION
Pursuant to 28 U.S.C. § 1292(b) and Rule 5 of the
Federal Rules of Appellate Procedure, the United
States respectfully petitions this Court for permission
to appeal an interlocutory order of the United States
District Court for the District of Columbia, dated
September 30, 2018, in Case No. 17-2487. A copy of
that order is appended to this petition.
See
Addendum (Add.) 2. The district court certified the
order for interlocutory appeal on February 28, 2019.
See Add. 44-66.

20a
STATEMENT OF CONTROLLING
QUESTION OF LAW
The Government of Guam sued the United States
under Sections 107 and 113 of the Comprehensive
Environmental Response, Compensation, and
Liability Act (“CERCLA”), seeking to recover costs of
closing Guam’s Ordot Dump. All parties and every
court of appeals to address the issue agree that the
two statutory sections create mutually exclusive
causes of action, such that where a party has
“resolved its liability to the United States . . . for some
or all of a response action” within the meaning of
Section 113, that party is limited to a Section 113
action and may not bring a Section 107 action. 42
U.S.C. § 9613(f)(3)(B). The question presented by the
certified order is whether a 2004 consent decree in
which Guam agreed to take specific actions to close
Ordot resolved liability for costs of a response action
within the meaning of Section 113, such that Guam is
limited to proceeding under that section.
PRELIMINARY STATEMENT
This case arises out of the United States’ longrunning efforts to require Guam to address
environmental violations at the Ordot Dump. In
2004, Guam entered into a Clean Water Act consent
decree with the United States Environmental
Protection Agency (“EPA”), in which Guam agreed to
take certain actions to close the overburdened and
illegally operated dump site. After years of inaction
by Guam following entry of the consent decree, a
federal court in Guam took the extraordinary step of
appointing a receiver to supervise the performance of
Guam’s responsibilities under the consent decree,
with Guam to pay the costs incurred by the receiver.

21a
In 2017, Guam filed this suit to recover costs,
including costs incurred by the federal receiver, from
the United States, which Guam alleges contributed
waste to the Ordot Dump while the U.S. Navy
governed the island, from 1898 to 1950, and
thereafter.
Guam pleaded claims under two separate sections
of CERCLA, which federal courts of appeal have
uniformly held provide mutually exclusive remedies.
Section 107(a)(4)(A) allows a State to recover “all costs
of removal or remedial action” from a person that is
potentially liable under the statute.
Section
113(f)(3)(B), on the other hand, provides a
contribution action for “[a] person who has resolved
its liability to the United States . . . for some or all
of a response action.” 42 U.S.C. §§ 9607(a)(4)(A),
9613(f)(3)(B).
The United States moved to dismiss Guam’s suit in
its entirety, on the grounds that the 2004 consent
decree between Guam and the EPA “resolved” Guam’s
liability for some or all of a response action at the
Ordot Dump, and that Section 113 thus provided
Guam’s exclusive remedy for suing the United States.
Add. 10-11. Under the statute, such claims must be
brought within three years of the entry of the consent
decree. 42 U.S.C. § 9613(g)(3)(B). Guam’s effort to
raise such claims in the present suit is more than a
decade too late.
The district court accepted that under the law of all
circuits to address the issue, to the extent the 2004
consent decree triggered now-tardy Section 113
contribution claims, Guam is barred from attempting
instead to proceed with a Section 107 cost-recovery
claim. Add. 16-17. The court nevertheless denied the
United States’ motion to dismiss because it believed

22a
that the 2004 consent decree did not resolve Guam’s
liability for some or all of a response action as
required by Section 113. Add. 18-19. According to the
court, even though Guam agreed in the consent decree
to perform actions that qualify as response actions
under CERCLA, the decree did not trigger a
contribution claim under Section 113 because the
consent decree provisions did not resolve whether
Guam was liable for the costs of the cleanup or
determine the scope of Guam’s liability. See Add. 43.
In deciding that the 2004 consent decree did not
give rise to a Section 113 contribution action, the
district court rejected the approach of a recent Ninth
Circuit decision assessing when a consent decree
triggers Section 113, and instead relied on cases from
the Sixth and Seventh Circuits. Add. 19-32. The
existence of a circuit split on which this Court has not
yet taken a side is, by itself, proof that there is
substantial ground for difference of opinion on the
district court’s resolution of the issue, as the district
court itself recognized. See Add. 55-56.
Resolving that issue in the government’s favor will
materially advance the termination of this case. By
contrast, further proceedings on the merits of Guam’s
claims would be lengthy, complicated, and
burdensome, requiring the parties to reconstruct
decades of past naval operations on Guam—including
activities that took place over a century ago—as well
as Guam’s own management of the dump from 1950
to the present. See Add. 58-63.
Accordingly, the Court should consider the
controlling legal issue now, so that time and resources
are not expended on unnecessary proceedings.

23a
STATEMENT OF THE FACTS AND
PROCEEDINGS BELOW
***
III. Proceedings below
***
The district court denied the United States’ motion
to dismiss. Add. 5. The court accepted the uniform
view of the federal appellate courts that “costrecovery claims under CERCLA section 107(a) and
contribution claims under CERCLA section
113(f)(3)(B) are exclusive of one another, such that
Guam is permitted to proceed against the United
States” for recovery of costs under Section 107(a)
“only if Guam’s right to contribution under section
113(f)(3)(B) has not been triggered.” Add. 17-18
(emphasis added). It nevertheless refused to dismiss
because, in its view, the 2004 consent decree did not
resolve Guam’s liability for all or even some of a
response action within the meaning of Section 113.
Add. 19-43.
In reaching that conclusion, the district court
relied in large part on the fact that the 2004 consent
decree, while making Guam responsible for taking
specific response actions by dates certain, expressly
withholds any admission of Guam’s statutory
liability. See Add. 26-29, 33-34. The district court
acknowledged that, while this Court has not yet
addressed the question, the Ninth Circuit recently
held that a consent decree containing such a
disclaimer of statutory liability may still give rise to a
Section 113 action, so long as the decree conclusively
establishes the party’s obligation to take all or even
some part of a response action. Add. 26-28 (citing
Asarco LLC 866 F.3d at 1124–25). But the court

24a
rejected the Ninth Circuit’s approach, instead citing
decisions of the Sixth and Seventh Circuits to support
its view that a consent decree which declines to
resolve statutory liability cannot be read to resolve
liability for all or part of a response action. Add. 2225, 28-29 (citing Florida Power Corp. v. First Energy
Corp., 810 F.3d 996, 1004 (6th Cir. 2015); Bernstein,
733 F.3d at 212–16; ITT Indus., 506 F.3d at 460).
The district court likewise cited decisions of the
Sixth and Seventh Circuits, and rejected the approach
of the Ninth Circuit, in holding that certain other
provisions of the 2004 consent decree—specifically,
provisions reserving the EPA’s rights to enforce the
decree’s terms and making the United States’
covenant not to sue Guam conditional on Guam’s
performance of its obligations under the decree—
militated against finding that the decree triggered
Section 113. See Add. 26-30.
On February 28, 2019, the district court certified
its order denying the United States’ motion to dismiss
for interlocutory appeal under 28 U.S.C. § 1292(b).
Add. 44. In the certification opinion, the court
explained that there was “no dispute” that the order
denying the motion to dismiss raised controlling
issues of law, particularly “how one best interprets
agreement language that expressly eschews liability
and reserves the right to sue, when the court
undertakes to evaluate whether a particular
agreement resolved the liability of a CERCLA
plaintiff for section 113(f)(3)(B) purposes.” Add. 5455. The court further reasoned that substantial
ground for difference of opinion on that issue exists,
given the dearth of in-circuit precedent on the issue
and the existence of a circuit-split among other courts
to have addressed the question. Add. 54-58. Finally,

25a
it determined that interlocutory appeal would
“materially advance” the litigation, in light of the
“potential for conservation of judicial resources and
avoidance of ‘needless expense’ to the parties,” by
obtaining this Court’s ruling on a dispositive
threshold legal question before the parties engage in
“wide-ranging and extensive” discovery. Add. 58-60.
REASONS WHY THE PETITION
SHOULD BE GRANTED
The standards for interlocutory appeal under 28
U.S.C. § 1292(b) are met in this case. In certifying the
order for appeal, the district court correctly
determined that the order presents a controlling
question of law with respect to which there is
substantial ground for difference of opinion, and that
immediate appeal may materially advance the
ultimate termination of the litigation.
I. The certified order presents controlling
questions of law as to which there is
substantial ground for difference of opinion.
Whether the 2004 consent decree resolves Guam’s
liability for some or all of a response action within the
meaning of Section 113 turns on the proper
construction of both Section 113 and the terms of the
consent decree itself—questions of law, which this
Court reviews de novo. See, e.g., Loving v. I.R.S., 742
F.3d 1013, 1016 (D.C. Cir. 2014) (“Our review of the
District Court’s statutory interpretation is de novo.”);
United States v. Volvo Powertrain Corp., 758 F.3d
330, 337 (D.C. Cir. 2014) (“we review the district
court’s construction of the consent decree . . . de
novo”).
Under 28 U.S.C. § 1292(b), a question of law is
controlling when reversal would be required if the

26a
question was decided incorrectly by the lower court.
Howard v. Office of the Chief Admin. Officer of the
U.S. House of Reps., 840 F. Supp.2d 52, 55 (D.D.C.
2012); APCC Servs. Inc. v. AT&T Corp., 297 F.
Supp.2d 101, 105 (D.D.C. 2003). Whether the 2004
consent decree triggered a Section 113 claim plainly
meets that standard: if this Court agrees with the
United States that the 2004 consent decree resolved
Guam’s liability for some or all of the response actions
Guam agreed to undertake in that decree, then the
district court’s order declining to dismiss the case
must be reversed, because Guam would be limited to
bringing a Section 113 claim, the statutory period for
bringing which has already expired. See 42 U.S.C.
§ 9613(g)(3)(B). Indeed, Guam conceded as much
below. See Add. 54.
Equally plain is the fact that there is substantial
ground for difference of opinion regarding whether
the 2004 consent decree triggered a Section 113
action. This Court has never addressed what it
means to “resolve . . . liability” for “some or all of a
response action” under Section 113(f)(3)(B), nor what
a consent decree must include to meet that standard.
See Add. 55. A “dearth of precedent” on an issue
within the controlling jurisdiction is, by itself, often
sufficient to show that substantial grounds for
difference of opinion with a legal ruling exist. APCC,
297 F. Supp. 2d at 107; see also Howard, 840 F.
Supp.2d at 55–56 (discussing fractured appellate
opinions on controlling issue).
Here, that dearth of within-circuit authority is
compounded by the fact that the law outside this
circuit is split on the controlling legal questions. See
Add. 55-56. As the district court acknowledged both
in its certification order and the order denying the

27a
motion to dismiss, while the Sixth, Seventh, and
Ninth Circuits all agree that a Section 113 action is
not triggered “simply and solely because interested
parties ‘sign[ed] a settlement agreement,’” Add. 20
(quoting Bernstein, 733 F.3d at 213), some decisions
from those circuits diverge with regard to what
precisely such an agreement must contain to trigger
a contribution action. See Add. 55-56. In particular,
the Ninth Circuit on one hand and at least some
decisions of the Sixth and Seventh Circuits on the
other have taken different views on whether certain
features present in the 2004 consent decree—
including disclaimers of statutory liability and
conditional covenants not to sue—show that the
decree does not trigger a Section 113 action. See Add.
21-28, 56.
The district court sided with the Sixth and
Seventh Circuit decisions in finding that such
features precluded the 2004 consent decree from
resolving Guam’s liability for all or part of a response
action under Section 113. See Add. 33-37. But it
recognized that the fact that another of this Court’s
sister circuits may have resolved the issue differently
is itself compelling evidence that substantial ground
for difference of opinion exists. Add. 55-56; see, e.g.,
In re Cintas Corp. Overtime Pay Arbitration Lit., No.
M:06-cv-01781-SBA, 2007 WL 1302496, at *2 (N.D.
Cal. May 2, 2007) (granting motion to certify
interlocutory appeal in light of circuit split on legal
issue unresolved within the governing circuit).
Indeed, had Guam filed its CERCLA lawsuit in its
home forum within the Ninth Circuit, there is little
doubt that it would have no CERCLA cause of action.
That substantial ground for difference of opinion
exists—and that this Court accordingly might well

28a
diverge from the district court’s resolution of the
question—is further demonstrated here by the
persuasiveness of the Ninth Circuit position, which
the district court rejected.
First, the Ninth Circuit view that a consent decree
that, like the decree here, declines to establish a
party’s statutory liability may nevertheless trigger a
Section 113 contribution action, is consistent with
both the text and purpose of CERCLA. The text of
Section 113(f)(3)(B) provides an action for
contribution when a party has “resolve[d]” its
“liability” for “some or all of a response action.” 42
U.S.C. § 9613(f)(3)(B). Here, the district court did not
dispute that Guam agreed in the 2004 consent decree
to perform certain acts that qualify as “response
actions” with CERCLA’s broad definition of that
phrase. See generally 42 U.S.C. § 9601(25) (defining
“response” to include “remove, removal, remedy, and
remedial action”).
Nevertheless, the district court, like the Sixth and
Seventh Circuit opinions it cited, assumed that, to
trigger Section 113(f)(3)(B), a consent decree must
conclusively determine that the party is liable under
the statute to perform those actions—or, at least,
cannot expressly disclaim a finding of statutory
liability. See Add. 22-26, 28-29. But that is not what
the text of Section 113 requires; the provision merely
requires that the party’s liability for—that is, legal
obligation to perform—the response actions at issue
be resolved—that is, conclusively settled—by the
consent decree. 42 U.S.C. § 9613(f)(3)(B). The
statutory text takes no position on whether that legal
obligation stems from the party’s liability under
CERCLA, or from some other statute (such as the

29a
Clean Water Act), or merely from the terms of the
settlement agreement itself. See id.
Moreover, as the Ninth Circuit has recognized,
reading a requirement that the consent decree
establish liability for the response action under the
statute is at odds with CERCLA’s evident purpose.
See Asarco, 866 F.3d at 1125. As the Ninth Circuit
explained, “Congress’ intent in enacting § 113(f)(3)(B)
was to encourage prompt settlements that establish
[potentially responsible parties’] cleanup obligations
with certainty and finality.” Id. “[R]equiring a
[potentially responsible party] to concede liability”
under the statute in order to trigger a Section 113
contribution claim—as the district court did—“may
discourage [potentially responsible parties] from
entering into settlements” that enable prompt
cleanup in the first place. Id.
Second, the Ninth Circuit view that a consent
decree that preserves the government’s right to
enforce the decree and makes covenants not to sue
contingent on the party’s actual performance of its
obligations under the decree may still resolve the
party’s liability for a response action is also
persuasive. As previously stated, Section 113(f)(3)(B)
is triggered when a consent decree “resolve[s]”
liability for a response action.
42 U.S.C.
§ 6213(f)(3)(B).
The term “resolve” certainly
contemplates that a consent decree will settle
conclusively the question of whether a party must
perform the response actions in question. See Add. 19
(citing Asarco, 866 F.3d at 1122; Bernstein, 733 F.3d
at 211). But there is nothing unsettled about a
consent decree that clearly states what steps the
party is obligated to take, while also affirming that
the government may enforce the decree’s terms or

30a
decline to perform its corresponding promises, if the
party reneges on those obligations. As the Ninth
Circuit explained, “[a]n agreement may ‘resolve[]’”
liability for response actions—as required by Section
113(f)(3)(B)—“without hobbling the government’s
ability to enforce its terms if [that party] reneges.”
Asarco, 866 F.3d at 1125.
Indeed, as the Ninth Circuit recognized, the
contrary approach suggested by the Sixth and
Seventh Circuit decisions is at odds with both
CERCLA’s statutory context and Congressional
intent for that statute. See id. at 1124–25. With
regard to statutory context, CERCLA Section 122
provides that any covenant not to sue entered into by
the government will not “take effect until the
President certifies that remedial action has been
completed.” 42 U.S.C. § 9622(f)(3). Requiring that a
CERCLA consent decree nevertheless include an
unconditional covenant in order to resolve liability
under Section 113(f)(3)(B) would make it “unlikely”
that such an agreement “could ever resolve a party’s
liability,” given that such an unconditional covenant
would run afoul of Section 122. Asarco, 866 F.3d at
1124.
With regard to Congressional intent, CERCLA’s
legislative history expressly authorizes the
government to include in consent decrees “any
provisions allowing future enforcement action . . .
that [the government] determines are necessary and
appropriate to assure protection of public health,
welfare, and the environment.” H.R. Rep. No. 99-253,
at 102 (1985). As the Ninth Circuit noted, it would be
odd for Congress to promote inclusion of such
provisions in CERCLA consent decrees if Congress
contemplated that doing so would foreclose the

31a
consent decrees from triggering the right to seek
contribution under Section 113(f)(3)(B). Asarco, 866
F.3d at 1125.
For these reasons, the Ninth Circuit approach that
the district court rejected is more persuasive than the
approach that the district court adopted. Indeed, the
decisions on which the district court relied have met
with controversy and/or inconsistent application. For
example, the district court credited the Sixth Circuit’s
analysis in Florida Power Corp., a decision that the
United States argued was incorrect and inconsistent
with both CERCLA’s policies and EPA’s longstanding
CERCLA settlement practices, and which drew a
strong dissent.
See 810 F.3d at 1015-19
(Suhrheinrich, J., dissenting). Moreover, the Sixth
Circuit decisions that preceded Florida Power, on
which the Florida Power majority relied, are difficult
to reconcile, as explained by the Florida Power
dissent and by the Ninth Circuit in Asarco. Id.;
Asarco, 866 F.3d at 1124–25.
There is accordingly substantial ground to believe
that this Court would reverse the district court’s
decision in light of the Ninth Circuit’s cogent legal
analysis on the controlling question of whether the
2004 consent decree resolved Guam’s liability for
some or all of a response action within the meaning of
CERCLA Section 113.
II. Immediate appeal may materially advance
the ultimate termination of this case.
An immediate appeal may materially advance the
disposition of this litigation. If this Court agrees with
the United States that the 2004 consent decree
resolved Guam’s liability for some or all of a response
action within the meaning of Section 113(f)(3)(B),

32a
then the certified order should be reversed and
Guam’s case dismissed in full. As explained above, to
the extent the 2004 consent decree triggered a
contribution claim under Section 113(f)(3)(B), Guam
may not proceed with the Section 107 claim pleaded
in its complaint. See, e.g., Asarco, 866 F.3d at 1117;
Bernstein, 733 F.3d at 206; Solutia, 672 F.3d at 1236–
37; Morrison Enters., , 638 F.3d at 603–04; Agere, 602
F.3d at 229; Niagara Mohawk, 596 F.3d at 128; ITT
Indus., 506 F.3d at 458. And the Section 113 claim
that Guam pleaded in the alternative is time-barred.
See 42 U.S.C. § 9613(g)(3)(B). Immediate appeal is
therefore appropriate because resolution of an
interlocutory appeal in favor of the United States
would terminate this litigation in its entirety without
the need for further substantive proceedings in the
district court. See Howard, 840 F. Supp.2d at 57.
Deferring appellate review until a final judgment,
however, would require the parties to engage in
extensive discovery that may well be rendered
unnecessary if this Court ultimately decides that
Guam’s claims must be dismissed as a matter of law,
as the district court recognized. Add. 60. Guam seeks
to establish that the United States is liable for
contamination at the Ordot Dump based in part on
alleged United States activities that ceased nearly 70
years ago. See Add. 3. Discovery in this case will
therefore require the parties to establish a historical
record on issues ranging from World War II military
engagements on Guam, to the Navy’s historic
interactions with Ordot, to Guam’s waste disposal
operations in the ensuing decades. The fact that
Guam is located thousands of miles away from
District of Columbia (and Guam did not choose to the
file its lawsuit in Guam courts) will also make

33a
discovery into historical practices on Guam more
difficult, expensive, and time-consuming.
Furthermore, as noted, in addition to Guam’s
government agencies and instrumentalities, many
large businesses and commercial interests sent waste
to Ordot for decades. Other parties that arranged for
the disposal of hazardous waste at Ordot or
transported such waste to the landfill face CERCLA
liability and may ultimately be joined in this case,
further complicating and expanding the potential
scope of the CERCLA litigation in the district court.
See generally 42 U.S.C. § 9607(a).
Beyond the burden on the existing and potential
future parties to this litigation, the burden on judicial
resources will be significant if litigation proceeds. See
Add. 60. In addition to presiding over the extensive
discovery, the district court will likely be called upon
to hear dispositive motions at the summary judgment
stage and, if such motions are denied, to preside over
a bench trial.
In sum, allowing an interlocutory appeal at this
time could save the parties substantial time and
money, and also conserve judicial resources that
would otherwise be necessary to supervise discovery,
decide dispositive motions, and preside over a
potentially lengthy bench trial. These considerations
weigh in favor of permitting an immediate appeal,
which may obviate the need for further burdensome
litigation. See Nat’l Veterans Legal Servs. Program v.
United States, 321 F. Supp. 3d 150, 155 (D.D.C. 2018);
APCC, 297 F. Supp. 2d at 99-100; GTE New Media
Servs. Inc. v. Ameritech Corp., 44 F. Supp. 2d 313, 316
(D.D.C. 1999).

34a
CONCLUSION
For the foregoing reasons, the petition for leave to
appeal should be granted.
Respectfully submitted,
/s/Rachel Heron
JEFFREY BOSSERT
CLARK
Assistant Attorney
General
ERIC GRANT
Deputy Assistant
Attorney General
JENNIFER SCHELLER
NEUMANN
RACHEL HERON
Attorneys, Appellate
Section
Environment and Natural
Resources Division
U.S. Department of Justice
March 11, 2019

